Service List
Heart Tronics, Inc.
14942 Gault St
Van Nuys, CA 91405-2910
Willie James Gault:
Steven A. Blum, Esquire
Blum Collins LLP
707 Wilshire Boulevard
Suite 4880
Los Angeles, CA 90017
J. Rowland Perkins (deceased):
Timonthy A. Horton
Law Office of Timothy A. Horton
600 Broadway Suite 700
San Diego, CA 92101
Martin Bert Carter
8103 Mizner Ln
Boca Raton FL 33433
Mark Crosby Nevdahl
1228 E Brierwood Dr
Spokane WA 99218-1720
Ryan Allan Rauch
15152 Champagne Cir
Irvine, CA 92604
Tracey Hampton-Stein
5737 Kanan Road, # 510
Agoura Hills, CA 91301
ARC Finance Group, LLC
5737 Kanan Road, # 510
Agoura Hills, CA 91301

Richard C. Klugh, PLLC
25 Southeast 2nd Avenue, Suite 1100, Miami, Florida 33131
Telephone: (305) 536-1191 Facsimile: (305) 536-2170 E-mail: rickklu@aol.com

ARC Blind Trust
5737 Kanan Road, # 510
Agoura Hills, CA 91301
THS Blind Trust
5737 Kanan Road, # 510
Agoura Hills, CA 91301
Jaymi Blind Trust
5737 Kanan Road, # 510
Agoura Hills, CA 91301
Oak Tree Investments Blind Trust
5737 Kanan Road, # 510
Agoura Hills, CA 91301
WBT Investments Blind Trust
5737 Kanan Road, # 510
Agoura Hills, CA 91301
Catch 83 General Partnership:
George B. Newhouse
Theodora Oringher PC
633 West 5th Street, 26th Floor
Los Angeles, California 90071
Five Investments Partnership
8103 Mizner Ln
Boca Raton FL 33433

Richard C. Klugh, PLLC
25 Southeast 2nd Avenue, Suite 1100, Miami, Florida 33131
Telephone: (305) 536-1191 Facsimile: (305) 536-2170 E-mail: rickklu@aol.com

